                                                                Issue Date
                                                                      September 26, 2011
                                                                 
                                                                Audit Report Number
                                                                         2011-KC-0004




TO:        Deborah Holston, Acting Deputy Assistant Secretary for
             Single Family Housing, HU

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT:   FHA Did Not Prevent Corporate Officers of Noncompliant Lenders From
             Returning to the FHA Program


                                  HIGHLIGHTS

 What We Audited and Why

            We selected the Federal Housing Administration (FHA) for review because we
            noted during previous Office of Inspector General (OIG) audit work that FHA
            might not have a system in place to track lenders who voluntarily left the FHA
            program with outstanding indemnification agreements. Our objective was to
            determine whether FHA prevented corporate officers from participating in FHA
            programs after those officers left other lenders that did not honor their FHA
            indemnification agreements.

 What We Found
            FHA did not prevent lenders’ corporate officers from participating in FHA
            programs after those officers left other lenders that did not honor their FHA
            indemnification agreements. We found 12 different corporate officers who were
            participating in the FHA program after leaving 7 lenders that did not honor their
            indemnification agreements and had lost their FHA approval. However, FHA
            lacked the authority to prevent these corporate officers from reentering the FHA
            program.




                                             1
What We Recommend


           We recommend that FHA seek legislative and program rule changes to prevent
           lenders and their corporate officers with unsatisfied indemnification agreements
           from reentering the FHA program as the same or a new lender.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response


           FHA disagreed with our finding and our recommendation. We initially provided
           the draft report to FHA on May 17, 2011, and requested a response by June 16,
           2011. FHA provided written comments on June 30, 2011. We later revised the
           report and provided a draft for comment to FHA on August 24, 2011, and
           requested a response by September 8, 2011. FHA provided signed written
           comments on September 23, 2011.

           The complete text of the auditee’s draft for comment response, along with our
           evaluation of that response, can be found in appendix A of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: FHA Did Not Prevent Corporate Officers of Noncompliant Lenders   6
      From Returning to the FHA Program

Scope and Methodology                                                             12

Internal Controls                                                                 14

Appendixes
   A. Auditee Comments and OIG’s Evaluation                                       15
   B. Criteria                                                                    18




                                           3
                      BACKGROUND AND OBJECTIVES


The Federal Housing Administration (FHA) provides mortgage insurance on loans made by
approved lenders throughout the United States and its territories. FHA insures mortgages on single-
family and multifamily homes including hospitals and nursing homes. FHA mortgage insurance
provides lenders with protection against losses as the result of homeowners defaulting on their
mortgage loans. The lenders bear less risk because FHA will pay a claim to the lender in the event
of a homeowner’s default. Loans must meet established FHA requirements to qualify for insurance.

The Office of Single Family Housing is responsible for the overall management and administration
of FHA single-family mortgage insurance programs. Activities include approving lenders for FHA
participation; providing lenders instructions on how to originate, close, service, and foreclose on
mortgages; providing loss mitigation assistance; and monitoring program participants. The three
offices in the Office of Single Family Housing are the Offices of Single Family Program
Development, Single Family Asset Management, and Lender Activities and Program Compliance.

The Office of Lender Activities and Program Compliance is responsible for administering various
risk management activities related to FHA-approved lenders. There are three divisions within this
office: the Lender Approval and Recertification Division, Quality Assurance Division, and
Mortgagee Review Board Division.

The framework of the Office of Lender Activities and Program Compliance risk management
strategy is

      Gatekeeping-Approving and recertifying only responsible loan correspondents and lenders
       to originate and/or service FHA-insured mortgages in FHA’s Title I and II loan programs.
      Monitoring-Assessing lender performance, internal controls, and compliance with FHA
       origination and servicing requirements, largely through onsite reviews of lender practices,
       but also through onsite evaluations and analyses.
      Enforcement-Sanctioning those lenders and related parties that fail to comply with FHA
       requirements.

According to HUD Handbook 4155.2, Chapter 9, Section D.4.a thru D.4.d, mortgage lender
violations that significantly increase FHA’s risk and were caused by fraud or negligence on the
part of the lender should result in an indemnification agreement. Indemnification is requested by
either the Homeownership Center through the Quality Assurance Division, when appropriate, or
Office of Lender Activities and Program Compliance, in lieu of referring the matter to the
Mortgagee Review Board. Under an indemnification agreement, the originating mortgage lender
agrees to either abstain from filing an insurance claim or reimburse FHA if a subsequent holder
of the mortgage files an insurance claim and FHA suffers a financial loss in disposing of the
property. The term or duration of an indemnification agreement varies according to the severity
of the violation. Typically, the agreement is effective for 5 years from the date of the agreement
but may extend for a longer period at FHA’s discretion.



                                                 4
Also, a July 28, 2006, Single Family Housing policy memorandum states indemnification
agreements are negotiated primarily between the Quality Assurance Division and the lender. The
indemnifications result from deficiencies discovered in loan reviews conducted by the Quality
Assurance Division, the Processing and Underwriting Division, and/or the Office of Inspector
General (OIG). Whether the deficiencies stem from Quality Assurance Division lender
monitoring reviews, postendorsement technical reviews, or OIG audits, it is the materiality of the
deficiency that is important, and the standard for requesting indemnification from the lender
must be consistent.

Mortgagee Letter 2010-38 defines a corporate officer as a person with one of the following titles:
owner, president, vice president, chief operating officer, chief financial officer, director,
corporate secretary, chief executive officer, member (e.g., of a limited liability corporation) and
chairman of the board.

Our audit objective was to determine whether FHA prevented corporate officers from
participating in FHA programs after those officers left other lenders that did not honor their FHA
indemnification agreements.




                                                5
                               RESULTS OF AUDIT

Finding 1: FHA Did Not Prevent Corporate Officers of Noncompliant
Lenders From Returning to the FHA Program
FHA did not prevent lenders’ corporate officers from participating in FHA programs after those
officers left other lenders that did not honor their FHA indemnification agreements. This
condition occurred because FHA lacked the authority to prevent these corporate officers from
reentering the FHA program.




 Corporate Officers Participated
 in the FHA Program After
 Leaving Lenders That Did Not
 Honor Previous FHA
 Agreements


              FHA did not prevent lenders’ corporate officers from participating in FHA
              programs after those officers left other lenders that did not honor their FHA
              indemnification agreements. During our limited review, we found 12 different
              corporate officers who were participating in the FHA program after leaving 7
              lenders that did not honor their indemnification agreements and had lost their
              FHA approval.

              The seven lenders had 153 loans with unresolved indemnification agreements at
              the time their FHA business was terminated. Since the lenders left the FHA
              program, FHA was unable to collect on the more than $7.3 million in net losses
              related to the unresolved indemnification agreements.

              The following table lists the lender’s name, the number of corporate officers
              participating in the FHA program after leaving the lender that did not honor its
              indemnification agreements, the date when the lender was terminated, either
              voluntary or involuntarily, from the FHA program, the total number of loans with
              unresolved indemnification agreements when the lender was terminated from the
              FHA program, and the loss amount incurred by FHA. The loss amount is the
              calculated amount of profit or loss resulting from the sale of a property.

              The loans with unresolved indemnification agreements included loans that still
              had active indemnification agreements in effect when the lender left FHA or loans
              in which the lender had not already honored their indemnification agreements
              before they left FHA. The lender’s FHA termination dates were obtained from



                                               6
Neighborhood Watch and the number of loans with unresolved indemnification
agreements came from the Single Family Enterprise Data Warehouse for loans
endorsed from 1998 through 2008. The loss amount incurred came from the Single
Family Enterprise Data Warehouse and Single Family Insurance System-Claims
Subsystem for loans endorsed from 1998 through 2008 and having unresolved
indemnification agreements.

 Lender name       Number of        Date when      Number of loans       Loss
                   corporate        lender was     with unresolved      amount
                    officers        terminated     indemnification     incurred
                                    from FHA         agreements         by FHA


 First Magnus           4           June 1, 2009         111           $5,892,831
   Financial
  Corporation
   Pinnacle             2            March 24,            15           $607,086
   Financial                          2008
  Corporation
     Aegis              1             June 13,            11           $347,440
  Wholesale                             2008
  Corporation
    Leader              1           February 28,          8             $73,512
   Mortgage                            2006
   Company
   LoanCity             1           June 1, 2007          5            $228,421
  Community             2            August 2,            2            $133,255
   Mortgage                            2006
  Group, Inc.
     MCM                1            December             1             $31,880
 Holdings, Inc.                      14, 2004
    Totals             12                                153           $7,314,425


First Magnus Financial Corporation
First Magnus Financial Corporation, a former FHA-approved lender, was
approved to begin FHA business on November 7, 1996, and later shut down its
business in 2007 and went into bankruptcy. It was later involuntarily terminated
by Mortgagee Review Board actions on June 1, 2009. At the time of its
termination, First Magnus had 111 loans with unresolved indemnification
agreements which incurred losses of more than $5.8 million.

However, in May 2008, FHA approved a new lender which was led by a group of
former First Magnus executives to originate insured home loans. Four corporate
officers from First Magnus began work at the new FHA-approved lender. These
included the chief financial officer who began working at First Magnus in August,


                                7
1997; the chief operating officer and chief technology officer who began working
at First Magnus in October, 1996; and the general counsel who began working at
First Magnus in December, 2002.

When these four officers began working at the new lender, one served as the
president/chief executive officer, two were vice presidents, and one was the
treasurer. Also, three of these individuals were listed on the new lender’s board
of directors.

Pinnacle Financial Corporation
Pinnacle Financial Corporation began their FHA business on September 20, 1998
and voluntarily terminated on March 24, 2008. We found two corporate officers
were listed as officers in the 1995 through 2009 annual reports filed with the
Florida Secretary of State. Both of these individuals were also listed as the
managing members for another lender during their time at Pinnacle Financial
Corporation. This lender began their FHA business on December 16, 2002, and
involuntary terminated on April 6, 2010. According to documents filed with the
Florida Secretary of State, one of the above corporate officers was listed as a
managing member for the other lender from 2001 through 2005. The other
corporate officer was also listed as a managing member for this lender from 2003
through 2007. Pinnacle Financial Corporation left FHA with 15 unresolved
indemnification agreements and incurred losses of more than $607,000.

Aegis Wholesale Corporation
Aegis Wholesale Corporation began their FHA business on May 23, 1951, and
terminated voluntary their FHA status on June 13, 2008. One corporate officer
worked for this lender as the vice president and chief financial officer from 2000-
2005. This same corporate officer went to work for another FHA lender in 2005
and worked there until 2008. After leaving this lender, he went to work for
another FHA lender as vice president. At the time of its termination, Aegis
Wholesale Corporation had 11 loans with unresolved indemnification agreements
which incurred losses of more than $347,000.

Leader Mortgage Company
Leader Mortgage Company began its FHA business on April, 1, 1992, and
voluntarily terminated its FHA business on February 28, 2006. On March 4,
2005, FHA approved another lender with a similar name and this lender is still
active with FHA. Leader Mortgage’s former president now serves as chief
executive officer for this new lender. Leader Mortgage left the FHA program
with 8 unresolved indemnification agreements and incurred losses of more than
$73,000.

LoanCity
LoanCity began their FHA business on September 13, 1990, and voluntarily
terminated on June 1, 2007. Through the Washington Secretary of State and New
Hampshire Banking Department Web sites, we learned one corporate officer served



                                 8
as president from 1999 through 2007. The Approval Recertification and Review
Tracking System data showed this corporate officer also began serving as president
at another lender. This lender began their FHA business on June 2, 2009. Also,
LoanCity left the FHA program with 5 unresolved indemnification agreements
and incurred losses of more than $228,000.

Community Mortgage Group Inc
Community Mortgage Group Inc began their FHA business on November 27,
1995, and involuntarily terminated for failure to submit its audited financial
statements and recertification fees on August 2, 2006. On the Texas and
Colorado Secretary of State Web sites, we found two corporate officers for
Community Mortgage Group Inc. These corporate officers served from 1995-
2004 as the president and the vice president. At the time of its termination,
Community Mortgage Group Inc had 2 loans with unresolved indemnification
agreements which incurred losses of more than $133,000.

Another lender was formed on October 8, 2003 and dissolved on March 4, 2010.
When the business began, it was a limited partnership with the general partner
listed as Community Mortgage Group Inc. On January 9, 2004, the name was
changed and it became a limited liability company. In the Articles of
Organization for this limited liability company, it stated the initial state of
managers was Community Mortgage Group Inc. This limited liability company
began their FHA business on January 22, 2004 and involuntarily terminated for
failure to submit its audited financial statements and recertification fees on
February 5, 2009.

MCM Holdings Inc.
MCM Holdings Inc initially received its FHA status on September 1, 1998 and
was terminated involuntarily because it didn't pay its recertification fee on
December 14, 2004. It later reapplied to FHA and received approval to again
begin FHA business on November 7, 2007. We reviewed the annual reports
located on the Florida Department of State, Division of Corporations website and
determined the president of MCM Holdings Inc continuously served from 2000
through 2010. Also, he was the only corporate officer listed in these annual
reports. When MCM Holdings Inc initially left the FHA program, it had one
unresolved indemnification agreement which incurred losses of more than
$31,000.




                                 9
FHA Lacked Authority To
Prevent Corporate Officers
From Returning to the FHA
Program

           FHA lacked the authority to prevent these corporate officers from reentering the
           FHA program..

           While FHA has the authority to prevent an FHA lender that does not make good
           on an indemnification agreement from conducting future FHA business, it does
           not have the authority to prevent its principals (e.g., individual officers) from
           reentering the FHA program with new or existing lenders unless those principals
           have been personally removed from or otherwise prevented from participating in
           the FHA program through such actions as debarments.

           Although 12 U.S.C. (United States Code) 1708(c)(7) provides an expansive
           definition of “mortgagee,” which includes a “director, officer, employee, agent, or
           other person participating in the conduct of the affairs of the mortgagee, lender, or
           loan correspondent,” the definition only bars individual officers from reentering
           the FHA program with other FHA lenders if they have been found to be
           personally responsible for the actions of their former company or employer. In
           other words, it appears that the limited liability rules that protect officers of
           corporations from being personally liable for the bad acts of their corporate
           employers apply in this context as well. Thus, if a lender has been found to have
           engaged in conduct that renders it unfit to continue as an FHA lender, its officers
           are not imputed with the same bad behavior.

            The law as it is currently drafted states only the lender can be withdrawn or
           suspended by the Mortgagee Review Board under 12 U.S.C. 1708(c)(3)(E) or
           found to have been ineligible for approval as a mortgagee under section 203(D) of
           Public Law 111-22 (Helping Families Save Their Homes Act of 2009). Unless an
           officer is found to have been personally responsible for the lender’s failure to
           make good on its indemnification payments, there is no legal mechanism to
           prevent such officers from joining other lenders as corporate officers and
           transacting business in precisely the same manner as they did at the prior lender.

           Appendix B contains the criteria outlined in the above paragraphs.




                                            10
Conclusion




             FHA did not prevent lenders’ corporate officers from participating in FHA
             programs after those officers left other lenders that did not honor their FHA
             indemnification agreements. During our limited review, we found 12 different
             corporate officers who were participating in the FHA program after leaving 7
             lenders that did not honor their indemnification agreements and had lost their
             FHA approval.

             The seven lenders had 153 loans with unresolved indemnification agreements at
             the time their FHA business was terminated. Since the lenders left the FHA
             program, FHA was unable to collect on the more than $7.3 million in net losses
             related to the unresolved indemnification agreements.

             FHA lacked the authority to prevent these corporate officers from reentering the
             FHA program. Unless an officer is found to have been personally responsible for
             the lender’s failure to make good on its indemnification payments, there is no
             legal mechanism to prevent such officers from joining other lenders as corporate
             officers and transacting business in precisely the same manner as they did at the
             prior lender.


Recommendations



             We recommend that the Acting Deputy Assistant Secretary for Single Family
             Housing

             1A. Seek legislative and program rule changes to prevent lenders and their
                 corporate officers with unsatisfied indemnification agreements from reentering
                 the FHA program as the same or a new lender.




                                             11
                        SCOPE AND METHODOLOGY

Our review covered the period July 1, 2008, through July 31, 2010, and was expanded as necessary.
We conducted our fieldwork from September 2010 through April 2011 at HUD headquarters in
Washington, DC.

To accomplish our objective, we

      Reviewed applicable laws and regulations;
      Evaluated policies and procedures from the Office of Single Family Housing’s Office of
       Lender Activities and Program Compliance and Quality Assurance Division;
      Interviewed appropriate HUD staff;
      Reviewed HUD OIG audit reports;
      Analyzed lender data contained in the Single Family Housing Enterprise Data Warehouse,
       Single Family Insurance System – Claims Subsystem, Albany Indemnity Table,
       Neighborhood Watch, Institutional Master File, Approval Recertification and Review
       Tracking System, Lender Assessment Subsystem; and
      Reviewed data in LexisNexis and individual Secretary of State and social network Web sites
       concerning business corporations and individuals.

We were unable to perform broad nationwide testing due to limited access to FHA’s Institutional
Master File and the Approval Recertification and Review Tracking System databases. We
initially requested a full download of the raw data from the systems. However, contractor related
issues prevented FHA from providing us the requested data files. As a result, we could only
review a small sample of FHA lenders.

To perform our limited testing, we initially prepared a listing of lenders who left the FHA
program with existing indemnification agreements by reviewing HUD OIG single-family audit
reports issued between 2004 and 2010. Also, we asked the HUD OIG regional inspectors
general for audit and special agents in charge if they were aware of any lenders and their
principals that may have left the FHA program with existing indemnification agreements and
later returned to the FHA program as a new lender. In addition, we found terminated lenders
with indemnifications that had tax identification numbers being used by other lenders. Overall,
we identified 24 lenders that required additional review.

We later obtained and reviewed a listing of lenders that showed lenders (both active and
terminated) with matching addresses. We later used Audit Command Language techniques to
match indemnification data with these matching addresses. We identified 80 lenders with 36
matching addresses which required additional review. We identified 19 additional lenders as a
result of our research efforts.

In total, we identified 123 lenders for additional review (24 lenders from prior OIG sources or
matching tax identification numbers, 80 lenders with matching addresses, and 19 lenders based
on additional research efforts). For all 123 lenders, we compared the corporate officers’ names
listed in FHA’s Institutional Master File and Approval Recertification and Review Tracking


                                               12
System to find any instances where corporate officers worked for two separate lenders. For some of
the lenders we used FHA’s Lender Assessment Subsystem, Lexis-Nexis, and Secretary of State and
social network Web sites to assist with our review.

In total, we identified 12 different corporate officers who participated in the FHA program after
leaving 7 lenders that did not honor their indemnification agreements and had lost their FHA
approval. Using data from FHA’s Institutional Master File, Approval Recertification and
Review Tracking System, and Lender Assessment Subsystem, in addition to data from
LexisNexis and applicable Secretary of State and social network Websites, we verified the 12
corporate officers were registered officers of the 7 lenders at the time the lenders entered into the
indemnification agreements. We then determined the seven lenders did not honor their
indemnification agreements by comparing their FHA termination dates with the indemnification
agreement expiration dates and HUD’s Financial Operation Center’s Albany Indemnity Table.

We assessed the reliability of data from FHA’s Institutional Master File, Approval
Recertification and Review Tracking System, and Lender Assessment Subsystem. We looked at
the 12 corporate officers and the lenders for which they worked and determined that we could
verify their Institutional Master File, Approval Recertification and Review Tracking System,
and/or Lender Assessment Subsystem data with other sources. We verified the data by
corroborating the information through such methods as reviewing prior HUD OIG audits,
LexisNexis searches, and applicable Secretary of State business entity searches, which contained
such archived documents as articles of incorporation, annual reports, etc. Overall, we
determined the data used in our audit from the Institutional Master File, Approval Recertification
and Review Tracking System, and Lender Assessment Subsystem supported our audit objectives
and were reliable for the purposes of our review.

We assessed the reliability of data from the Single Family Enterprise Data Warehouse and
Neighborhood Watch. In our limited testing of the data, we randomly selected 10 FHA loan
indemnifications from a lender. Overall, we determined that the indemnification agreement
number listed in the actual indemnification agreement and Neighborhood Watch matched in 9 of
the 10 loans. Also, the indemnification agreement dates listed in Neighborhood Watch matched
the indemnification agreement dates signed by either the lender or HUD’s Quality Assurance
Division. As a result, we determined the indemnification data supported our audit objectives and
were reliable for the purposes of our review.

In addition, we obtained data from the Single Family Insurance System – Claims Subsystem to
help compute the total debt owed to FHA. We did not assess the reliability of the data as the
data were only used to demonstrate the potential impact of the finding.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                 13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over tracking lenders and corporate officers with their
                      indemnification agreements.


               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government audit standards. Our evaluation of internal controls
               was not designed to provide assurance regarding the effectiveness of the internal
               control structure as a whole. Accordingly, we do not express an opinion on the
               effectiveness of FHA’s internal control.




                                                 14
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation      Auditee Comments




Comment 1




                            15
        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         16
                         OIG Evaluation of Auditee Comments

Comment 1   We recognize in the report that FHA does not currently have the authority to
            prevent individual officers from participating in the FHA program solely based on
            the fact that their previous lending institution did not honor its indemnification
            agreements with HUD. Further, we understand FHA’s concern about proving the
            knowledge or culpability of the individual being excluded from FHA
            participation. However, our concern remains that individual principals of some
            lending institutions are able to disregard the indemnification agreements with
            HUD and are allowed to continue FHA participation by hiding behind corporate
            law and forming a new corporation.




                                            17
Appendix B

                                             CRITERIA

    12 U.S.C. 1708(c)(7) defines the term “mortgagee” as
       (A) A mortgage approved under this chapter;
       (B) A lender or loan correspondent approved under subchapter I of this chapter;
       (C) A branch office or subsidiary of the mortgagee, lender, or loan correspondent; or
       (D) A director, officer, employee, agent, or other person participating in the conduct of the
           affairs of the mortgagee, lender, or loan correspondent.


    12 U.S.C. 1708(c)(3)(e) states that the Mortgagee Review Board may at any time enter into a
    settlement agreement with a mortgagee to resolve any outstanding grounds for an action.
    Agreements may include provisions such as

       (A) Cessation of any violation;
       (B) Correction or mitigation of the effects of any violation;
       (C) Repayment of any sums of money wrongfully or incorrectly paid to the mortgagee by a
           mortgagor, by a seller, or by FHA;
       (D) Actions to collect sums of money wrongfully or incorrectly paid by the mortgagee to a
           third party;
       (E) Indemnification of FHA for mortgage insurance claims on mortgages originated in
           violation of FHA requirements;
       (F) Modification of the length of the penalty imposed; or
       (G) Implementation of other corrective measures acceptable to the HUD Secretary.

    Material failure to comply with the provisions of a settlement agreement shall be sufficient cause
    for suspension or withdrawal.

    Public Law 111-22 (Helping Families Save Their Home Act of 2009), section 203(d)(2), and
    Mortgagee Letter 2009-31 state that to be approved, an applicant lender shall not be and shall not
    have an officer, partner, director, principal, manager, supervisor, loan processor, loan
    underwriter, or loan originator of the applicant lender who is (1) currently suspended, debarred,
    or under a limited denial of participation; (2) under indictment for or has been convicted of an
    offense that reflects adversely upon the applicant’s integrity, competence, or fitness; (3)subject to
    unresolved findings contained in a HUD or other governmental audit, investigation, or review;
    (4) engaged in business practices that do not conform to generally accepted practices of prudent
    lenders or that demonstrate irresponsibility; (5) convicted of or who has pled guilty or nolo
    contendre to a felony related to participation in the real estate or mortgage industry.

    Mortgagee Letter 2010-38 clarified the term “unresolved finding” by stating that all principal
    owners and corporate officers of FHA-approved lenders must confirm that the above-mentioned



                                                     18
individuals are not be subject to any unresolved findings or Federal lawsuits resulting from an
investigation, audit, or review by HUD or other Federal, State, or local governmental agency.
The lawsuits and findings may include but are not limited to open issues in any HUD OIG audit,
investigation, or review; any action by HUD’s Mortgagee Review Board; the suspension,
surrender, or revocation of a license of any kind by a State or local jurisdiction; the imposition of
fines, settlement agreements, or other monetary sanctions by a State or local entity; or any other
action taken by a government agency.




                                                 19
